No. 20-475
In the

Supreme Court of the United States

Stanley V. Campbell,
Petitioner,
v.
Eagle Force Holdings, LLC, et al.,
Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of Delaware

BRIEF IN OPPOSITION
Frank E. Noyes, II
Offit Kurman, P.A.
222 Delaware Avenue,
Suite 1105
Wilmington, Delaware 19801
(302) 351-0900
fnoyes@offitkurman.com

Harold M. Walter
Counsel of Record
Offit Kurman, P.A.
300 East Lombard Street,
Suite 2010
Baltimore, Maryland 21202
(410) 209-6400
hwalter@offitkurman.com

Counsel for Respondents

301147

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether Petitioner waived the right to seek this
Court’s review of the Delaware Supreme Court’s
2018 holding that “when a Delaware court issues
a status quo order pending its adjudication of
questions concerning its own jurisdiction, it may
punish violations of those orders with contempt and
for sanctions, no matter whether it ultimately finds
that it lacked jurisdiction” where: (a) Petitioner
failed to challenge that holding in a timely manner
by requesting re-argument as required by Delaware
S.Ct.R. 18; (b) the status quo order was issued while
Petitioner was before the Delaware court as other
proceedings were pending; (c) the Status Quo Order
was materially identical to a status quo agreement
that Petitioner twice stipulated to and subsequently
twice requested that the Delaware court enter as
its order; and (d) Petitioner voluntarily and actively
contested the merits of the claim that he violated the
status quo order?

2.

Whether findings of contempt for violating a status
quo order that was entered at the joint request of the
parties while the court determined whether it had
personal jurisdiction, and sanctions in the form of
requiring Petitioner to maintain the status quo and
an award of attorneys’ fees for bringing the violations
to the court’s attention, violated the Petitioner’s
due process rights such that they must be reversed
following the court’s subsequent determination that
it does not have personal jurisdiction to determine
the underlying claims?

ii
RULE 29.6 CORPORATE
DISCLOSURE STATEMENT
Respondent Eagle Force Holdings, LLC is solely
owned by Respondent EF Investments, LLC. EF
Investments, LLC has no parent corporation, and no
publicly traded corporation has 10% or more ownership
interest in either of the Respondents.

iii
LIST OF ALL PROCEEDINGS
DIRECTLY RELATED
• Eagle Force Holdings, LLC and EF Investments,
LLC v. Stanley V. Campbell, No. 10803-VCMR,
Court of Chancery of the State of Delaware,
Order Awarding Partial Remedy for Defendant’s
Contempt entered December 15, 2016.
• Eagle Force Holdings, LLC and EF Investments,
LLC v. Stanley V. Campbell, No. 10803-VCMR,
Court of Chancery of the State of Delaware,
Memorandum Opinion issued on September 1, 2017.
• Eagle Force Holdings, LLC and EF Investments,
LLC v. Stanley V. Campbell, No. 399,2017, Supreme
Court of the State of Delaware, judgment entered
on May 24, 2018.
• Eagle Force Holdings, LLC and EF Investments,
LLC v. Stanley V. Campbell, No. 10803-VCMR,
Court of Chancery of the State of Delaware, Order
granting Plaintiffs’ Three Motions for Contempt
entered on April 23, 2019.
• Eagle Force Holdings, LCC and EF Investments,
LLC v. Stanley V. Campbell, No. 10803-VCMR,
Court of Chancery of the State of Delaware, Order
Addressing Plaintiffs’ Motion for Contempt entered
on April 23, 2019.
• Eagle Force Holdings, LLC and EF Investments,
LLC v. Stanley V. Campbell, No. 405,2019 Supreme
Court of the State of Delaware, judgment entered
on July 8, 2020.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RULE 2 9.6 CORPOR ATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
LIST OF ALL PROCEEDINGS DIRECTLY
	RELATED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITES . . . . . . . . . . . . . .  viii
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
A. Background of the Underlying Dispute  . . . . . . . 1
B. The Stipulated Status Quo Agreement
and its Adoption by the Court . . . . . . . . . . . . . . . . 3
C. After a Hearing the Chancery Court
Maintained the June 26, 2015 Status
Quo Order But With Tighter Controls  . . . . . . . . 4
D. C h a n c e r y C o u r t C o n c l u d e d t h a t
Pet it ione r ’s Pe r s on a l Ju r i s d ic t ion
A rgument Could Not Be Determined
Separately from Whether the Signed
Transaction Documents Were Binding . . . . . . . . 5

v
Table of Contents
Page
E.	Respondents Brought Three Motions
for Contempt A sserting Petitioner’s
Violation of the 2015 Status Quo Order . . . . . . . . 6
F.	The Delaware Supreme Court Reversed
the Chancery Court’s Conclusion that
Lack of Personal Jurisdiction Rendered
Contempt Orders Unenforceable . . . . . . . . . . . . . 9
G. On Remand the Chancery Court Granted
Respondents’ Second and Third Contempt
Motions and Required Petitioner to
Return Funds Taken as Identified in
	All Three Contempt Motions  . . . . . . . . . . . . . . . . 9
H. Chancery Court Issued Its Opinion on
the Merits After Remand and Petitioner
Filed a Cross-Appeal Challenging the
Constitutionality of the Status Quo
	Orders for the First Time . . . . . . . . . . . . . . . . . . 11
REASONS FOR DENYING THE PETITION  . . . . . 13
A.	T h e D e l a w a r e S u p r e m e C o u r t ’s
Decision is Not in Conf lict With the
Holdings of This Court or Any Other
Court Cited by Petitioner and His 14th
Amendment Rights are Not Implicated  . . . . . . 13
1.	Petitioner Wa ived His Right t o
Challenge the Delaware Supreme
Court’s Holding in the First Appeal . . . . . 14

vi
Table of Contents
Page
2.	Petitioner Waived His Right to Challenge
the Status Quo Order Because it was
Issued While He Was Before the Court
as Other Proceedings Were Pending . . . . . 16
3.	Petitioner Waived His Right to Challenge
the Status Quo Order Because He Twice
Stipulated to a Materially Identical
Agreement and Twice Moved for Entry
of a Materially Identical Order . . . . . . . . . . 17
4.	Petitioner Wa ived His Right t o
C ont e s t t h e C ont e mp t O r d e r s
Because He Voluntarily Contested
the Merits of the Claim that He
Violated the Status Quo Order . . . . . . . . . . 18
B. Pet it ioner ’s D ue P r o c e s s Cl a i m i s
Inconsistent with Prior Decisions of this and
other Courts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
1.

The Status Quo Order Had a Limited
P u r p o s e a nd D id Not P r e vent
Petitioner from Taking Any Action . . . . . . 19

2.	Petitioner’s Position is Contrary to
this Court’s United Mine Worker’s
Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

vii
Table of Contents
Page
3.	The Delaware Supreme Court’s Holding
Was Well Supported by Decisions of this
and Other Courts and Does Not Violate
Petitioner’s Due Process Rights . . . . . . . . . 24
4.	Petitioner has Cited No Court Holding
that Sanctions May Not Be Imposed
for Violating a Status Quo Order Even
if the Court Later Determines that it
Did Not Have Personal Jurisdiction  . . . . . 27
C. Petitioner Received Due Process and
T h e I m p l i c a t i o n s o f Pe t i t i o n e r ’s
Position Would Create Bedlam in the
Courts of the United States  . . . . . . . . . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Campbell v. Eagle Force Holdings, LLC,
213 A.3d 88, 2019 Del. LEXIS 335,
2019 WL 3002937 (Del. S. Ct. July 9, 2019) . . . . . . . 11
E.I. Du Pont de Nemours & Co. v. HEM
Research, Inc.,
576 A.2d 635 (Del. Ch. 1989)  . . . . . . . . . . . . . . . . . . .  17
Eagle Force Holdings, LLC v. Campbell,
187 A.3d 1209 (Del. 2018) . . . . . . . . . . . . . . . . . . passim
Eagle Force Holdings, LLC v. Campbell,
235 A.3d 727 (Del. 2020) . . . . . . . . . . . . . . . . . . . passim
Gompers v. Bucks Stove & Range Co.,
221 US. 418 (1911) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Hayes v. Towles,
506 P.2d 105 (Idaho 1973) . . . . . . . . . . . . . . . . . . . . . . 25
Mayer v. Mayer,
132 A.2d 617 (Del. Ch. 1957)  . . . . . . . . . . . . . . . . . . . 26
Mendez v. State,
69 A.3d 371, 2013 Del LEXIS 312,
2013 WL 3270899 (Del. June 24, 2013) . . . . . . . . 14, 27

ix
Cited Authorities
Page
Ohio Contractors Ass’n v. Local 894 of Int’l Hod
Carriers’, Bldg. & C. L. Union of Am.,
162 N.E. 2d 155 (Ohio Ct. App. 1959) . . . . . . . . .  25-26
Pitcock v. State,
121 S.W. 742 (Ark. 1909) . . . . . . . . . . . . . . . . . . . . . . . 25
United Electrical Radio and Mach. Workers of
America v. 163 Pleasant Street Corp,
987 F.2d 39 (1st Cir. 1993)  . . . . . . . . . . . . . . . . . . 29, 30
United Electrical, Radio and Mach Workers of
America v. 163 Pleasant Street Corp,
960 F.2d 1080 (1st Cir. 1992)  . . . . . . . . . . . . . . . . 28, 30
United States v. Thompson,
921 F.3d 82 (2d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . 31
United States v. United Mine Workers,
330 U.S 258 (1947) . . . . . . . . . . . . . . . . . . . . . . . . passim
Willy v. Coastal Corp.,
503 U.S. 131 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . 30, 31
Worden v. Searls,
121 U.S. 14 (1887)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

x
Cited Authorities
Page
Other Authorities
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . .  13, 14
12. A.L.R. 2d 1059 § 6  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Del. Sup. Ct. R. 18  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
STATEMENT OF THE CASE
The Petition for Certiorari relates to multiple findings
of contempt against Petitioner for repeated violations
of a status quo order entered by the Delaware Court of
Chancery. Petitioner appeared in the Court of Chancery
to litigate the status quo order and each of the contempt
motions. Details concerning the underlying lawsuit are
presented solely to give this Court the context in which
the status quo order was necessary, the circumstances
in which contempt orders were entered, and the limited
nature of the relief that was ordered.
A. Background of the Underlying Dispute
This lawsuit was filed in the Delaware Court of
Chancery on March 17, 2015 by Respondents Eagle
Force Holdings, LLC (“Holdings”) and EF Investments,
LLC (“Investments”), two Delaware limited liability
companies, against Stanley V. Campbell, a resident
of Virginia. Respondents alleged that after months of
arms’ length negotiations, Campbell and Investments
had entered into a written Contribution and Assignment
Agreement (“Contribution Agreement”) and an Amended
and Restated Limited Liability Company Agreement
for Holdings (“LLC Agreement”) (collectively, the
“Transaction Documents”) in which the parties agreed
that the newly formed Holdings would be owned equally by
Investments and Campbell. The Transaction Documents
were signed by the parties in a signing ceremony with a
witness on August 28, 2014.
The parties agreed in the signed Contribution
Agreement that Campbell would contribute his sole

2
ownership of EagleForce Associates, Inc. (“Associates”),
a start-up entity formed in Virginia, to Holdings in
exchange for Investments contributing $2.3 million
dollars to fund Associates until it could obtain customers
and revenue. The Holdings LLC Agreement confirmed
that Campbell was an equal 50% member of Holdings
and a member of the board of managers of Holdings
along with Richard Kay, the owner of Investments. Since
Holdings was formed as a Delaware LLC, the Transaction
Documents established consent by Campbell to personal
jurisdiction in Delaware.1 Signing the Contribution
Agreement effectuated the transfer of Associates to
Holdings, and Investments contributed capital as required
by the Contribution Agreement. But the co-management
of the business generated disputes between Campbell
and Kay, and in February 2015, just as Associates
obtained its first revenue producing customer, Campbell
announced that he did not believe he was bound by his
signatures on the Transaction Documents or that they
were enforceable. Campbell attempted to recharacterize
the capital contributed by Investments as a loan and broke
off Associates’ relationship with Investments and Kay.
Respondents then filed this lawsuit, primarily seeking
to enforce their rights to 50% ownership interest in
Associates through specific performance, and alleging
breach of contract, fraud, and breach of fiduciary duty
among other theories of recovery, while also seeking
declaratory and injunctive relief, and imposition of a
constructive trust.
1. Holdings was initially formed during the negotiations as a
single member LLC and was owned by Investments. Even before
the Transaction Documents were signed, Campbell had signed a
binding letter agreement in which he agreed prospectively that
he would be a member and manager of Holdings.

3
In response to this lawsuit filed in Delaware,
Petitioner Campbell chose to come to Delaware to defend
the case, and actively litigated all aspects of the case
through discovery, motion practice, trial, and two appeals,
including: stipulating to two status quo agreements;
requesting that the Chancery Court enter those status
quo stipulations as orders; and contesting the multiple
contempt motions against him on the merits, all while
purporting to preserve a defense of lack of personal
jurisdiction.
B. The Stipulated Status Quo Agreement and its
Adoption by the Court
Just prior to the lawsuit, Petitioner Campbell took
the position that the signed Transaction Documents
were not enforceable and Associates was still owned
entirely by him. He then locked Respondents out of
the business. Respondents therefore filed a Motion for
Interim Emergency Relief seeking a Status Quo Order to
require Petitioner to, inter alia, provide advance notice
to Respondents prior to removing assets from Associates
while the litigation was pending.
While that motion was being briefed, on June 12, 2015,
the parties entered into a “Stipulation and (Proposed)
Order Regarding Notice Pending Resolution of Plaintiffs’
Motion for Interim Emergency Relief” (“First Stipulation
and (Proposed) [Status Quo] Order”) which was filed with
the Chancery Court with a joint request that the court
adopt the stipulation as an order of the court pending
further action on Respondents’ Motion for Interim
Emergency Relief. The Chancery Court granted the joint
request and adopted the “First Stipulated and (Proposed)
[Status Quo] Order” as an order of the court on June 26,

4
2015, (“June 26, 2015 Status Quo Order”) (Chancery Court
Docket (“Ch.Ct.Dkt.”) 48). In pertinent part, the June
26, 2015 Status Quo Order required Campbell to provide
advance notice to Respondents prior to taking certain
actions with respect to Associates, including paying
himself in excess of a defined amount from Associates.
If after receiving notice, Respondents’ objected to the
proposed action, the stipulation and order required
Campbell to obtain an order from the Chancery Court
before proceeding with that action.
C. After a Hearing the Chancery Court Maintained
the June 26, 2015 Status Quo Order But With
Tighter Controls
On July 9, 2015, the Chancery Court held oral
argument on Respondents’ Motion for Interim Emergency
Relief. Campbell’s position was that, although he objected
to certain other aspects of the proposed emergency relief
sought by Respondents, he had “no opposition” to the
advance notice requirement and blocking rights contained
in the First Stipulated and (Proposed) [Status Quo] Order
“continuing throughout this litigation.” July 9, 2015 Hrg.
Tr., 29/22-23 (Ch.Ct.Dkt. 61).
At the conclusion of the hearing, the Chancery
Court found that Respondents had shown entitlement to
continuation of the requirements in the First Stipulated
and (Proposed) [Status Quo] Order for advance notice
and “blocking rights” to certain financial transactions,
and suggested that the parties attempt to agree on the
specifics of tighter restrictions on Petitioner’s actions
triggering notice to be contained in a further order. July
9, 2015 Hrg.Tr., 76/22-77/20 (Ch.Ct.Dkt. 61). However,

5
when the parties were unable to agree on these details,
on July 23, 2015, the Chancery Court reached its own
determination as to the triggering amounts for notice and
issued its Order Granting Plaintiffs’ Petition for Relief
Pursuant to Ct. Ch. R. 65(b) (the “2015 Status Quo Order”)
(Ch.Ct.Dkt.62). The 2015 Status Quo Order provided that
it remained in effect “pending the conclusion of this action
or further order of this Court.” Id. ¶ 8.
The 2015 Status Quo Order did not preclude Campbell
from engaging in any desired transaction. It simply
required that he give advance notice so that Respondents
could decide if they wanted to object. If they did object,
then Campbell had the right to ask the Court to approve
the proposed transaction.
D. Chancery Court Concluded that Petitioner’s
Personal Jurisdiction Argument Could Not Be
Determined Separately from Whether the Signed
Transaction Documents Were Binding
At the same July 9, 2015 hearing, the Chancery Court
determined that a decision on personal jurisdiction had
to await a decision on the merits because if at least one
of the Transaction Documents was a valid enforceable
contract, then the Delaware court had jurisdiction via
a forum selection clause favoring Delaware to which
Campbell consented by signing. If neither document was
enforceable, and if earlier agreements did not provide
another means of exercising jurisdiction over Petitioner,
then Delaware courts lacked personal jurisdiction over
Petitioner. Thereafter, full discovery began.

6
E. Respondents Brought Three Motions for Contempt
Asserting Petitioner’s Violation of the 2015 Status
Quo Order
During the proceedings before the Chancery Court,
Respondents filed multiple contempt motions against
Petitioner Campbell, including on May 27, 2016 (the
“First Contempt Motion”), March 6, 2017 (the “Second
Contempt Motion”), and May 24, 2017 (the “Third
Contempt Motion”), seeking to hold Petitioner in contempt
for violating the 2015 Status Quo Order by failing to give
Respondents the required advance notice of transactions
subject to the 2015 Status Quo Order (each of which
involved Campbell taking substantial sums of money
from Associates and paying it to himself). Each motion
was the subject of substantial briefing and the Court of
Chancery held evidentiary hearings on each of the motions
at which Petitioner Campbell appeared with counsel and
gave testimony (August 31, 2016, September 8, 2016, May
5, 2017, and August 28, 2017). In his briefing, testimony,
and oral argument of counsel, Petitioner contested the
merits of the claims that he violated the 2015 Status Quo
Order and claimed that he complied (or tried to comply)
with the Order. At none of these hearings, nor in any of
his briefs, testimony, or arguments, did Petitioner ever
claim that the 2015 Status Quo Order did not bind him or
that it violated his constitutional rights.
At the conclusion of the hearing on the First Contempt
Motion (September 8, 2016) the Chancery Court ruled
from the bench, finding Petitioner to be in contempt of
court and granted Respondents’ leave to recover from
Petitioner their legal fees incurred in bringing the
contempt to the court’s attention. September 8, 2016

7
Hrg.Tr., 219/12-222/10 (Ch.Ct.Dkt. 160). The contempt
was based on Petitioner’s refusal to comply with the
advance notice requirement. Respondents discovered the
violations from studying the financial records Petitioner
was providing pursuant to 2015 Status Quo Order, which
showed numerous transactions for which notice was
required but not provided. After finding Petitioner in
contempt the first time, the Vice Chancellor, in open court,
directly admonished Petitioner Campbell to drive home
the seriousness of the contempt:
Vice Chancellor: …If you have any doubts about
the order and what it says, you should err on
the side of providing advance notice to the
plaintiffs and giving additional information to
the plaintiffs. You’re represented by very able
counsel in Mr. Finger, and I would suggest
that you lean on him and use him when you’re
making these decisions.
September 8, 2016 Hrg.Tr., 221/2-8 (Ch.Ct.Dkt.160).
Despite this crystal clear instruction, Petitioner
obstinately refused to provide the required notice
for funds he paid to himself in excess of the amounts
permitted under the 2015 Status Quo Order. This same
pattern continued, and each subsequent contempt finding
against Petitioner was based on his failing to give notice.
The Court was never asked to determine whether any
of the payments Petitioner made to himself would be
permitted because Petitioner never availed himself of the
procedure set forth in the 2015 Status Quo Order which
would have been triggered if Petitioner provided advance
notice and Respondents objected.

8
At the September 8, 2016 hearing, the Chancery
Court also found Petitioner in contempt of court for failing
to appear at a continuation of the contempt evidentiary
hearing on September 1, 2016 without providing advance
notice. The court awarded Respondents their attorneys’
fees for having appeared at the hearing which ultimately
had to be rescheduled on a different date.
After receiving briefing addressing the amount of
fees to be awarded for Petitioner’s violation of the 2015
Status Quo Order, the court issued a written decision
on December 15, 2016 (Ch.Ct.Dkt.171) reiterating its
September finding of contempt of court from the bench but
deferring its decision on sanctions other than attorneys’
fees for Petitioner’s failure to appear.
Trial on the merits took place on February 6-10,
2017. Post-trial briefing was scheduled over several
months following trial. The violations of the 2015 Status
Quo Order that were brought to the Chancery Court’s
attention in the Second and Third Contempt Motions
occurred during trial and throughout the post-trial
briefing period. Following a hearing on the Second and
Third Contempt Motions, the Chancery Court issued its
September 1, 2017 post-trial opinion finding, inter alia,
that the Transaction Documents were not enforceable,
that consequently it lacked personal jurisdiction over
Petitioner, and that as a result, the court’s prior contempt
orders were unenforceable. [Petitioner’s Appx. A]

9
F. The Delaware Supreme Court Reversed the
Chancer y Cour t’s Conclusion that Lack of
Personal Jurisdiction Rendered Contempt Orders
Unenforceable
On appeal of the Chancery Court’s September 1, 2017
opinion, the Delaware Supreme Court fully addressed the
Chancery Court’s conclusion that Petitioner could not be
held in contempt under the 2015 Status Quo Order because
of the subsequent finding of a lack of personal jurisdiction.
Eagle Force Holdings, LLC v. Campbell, 187 A.3d 1209,
1240-42 (Del. 2018). [Petitioner’s Appx. B] The Delaware
Supreme Court reversed that portion of the Chancery
Court’s decision finding that a subsequent ruling of lack of
personal jurisdiction precluded findings of contempt and
for sanctions where there was a violation of a valid status
quo order. Id. at 1241-42. While the Delaware Supreme
Court’s en banc decision was divided 3 – 2 on the issue
of jurisdiction, the Court was unanimous in its finding
that Petitioner was subject to contempt for his violations
of the 2015 Status Quo Order. Id. at 1242 (Strine, C.J.,
dissenting in part and concurring in part). Petitioner
did not seek reconsideration of the unanimous ruling
upholding the contempt findings contained in that decision
under Delaware Supreme Court Rule 18.
G. On R ema nd the Cha ncer y Cou r t Gra nt ed
Respondents’ Second and Third Contempt Motions
and Required Petitioner to Return Funds Taken as
Identified in All Three Contempt Motions
On remand, the Chancery Court requested additional
briefing on the pending contempt motions. Also following
remand, the parties stipulated to a slightly revised version

10
of the 2015 Status Quo Order (the “2018 Stipulated and
(Proposed) Status Quo Order”) that continued the same
advance notice requirements and “blocking rights” that
Petitioner only now claims violate his constitutional
rights. At the joint request of Petitioner and Respondents,
the Chancery Court entered the 2018 Stipulated and
(Proposed) Status Quo Order as an order on June 18,
2018 (“2018 Status Quo Order”) (Ch.Ct.Dkt. 273). At no
time did Petitioner claim before the Chancery Court that
the 2018 Status Quo Order that he stipulated to and that
was entered as an order at the joint request of the parties
violated his constitutional rights.
On April 23, 2019, the Chancery Court granted
Respondents’ Second and Third Contempt Motions,
awarded “sanctions” on the First, Second, and Third
Contempt Motions (requiring Petitioner to return money
taken from Associates, the company he solely owns)
and awarded reimbursement of reasonable attorneys’
fees incurred by Respondents in bringing the violation
of the 2015 Status Quo Order to the court’s attention.
[Petitioner’s Appx. C]
Follow ing the April 23, 2019 order g ranting
“sanctions” for the First, Second, and Third Contempt
Motions, Petitioner sought certification of an interlocutory
appeal and a motion to stay a different April 23, 2019
order [Petitioner’s Appx. D] (pertaining to the granting
of Respondent’s Fourth Motion for Contempt, which
is not before this Court) 2 and when that stay and
2. Later, in its 2020 decision, the Delaware Supreme Court
reversed the Chancery Court’s granting of Respondents’ Fourth
Motion for Contempt because the violations of the Status Quo

11
interlocutory appeal was not granted by the Chancery
Court, Petitioner sought an interlocutory appeal to the
Delaware Supreme Court (both limited to the granting
of the Fourth Contempt Motion). 3 These actions are only
relevant here to contrast the fact that Petitioner did not
seek any similar relief in either court from the holdings
in the First, Second, or Third Contempt Motions that are
the subject of the present Petition for Certiorari.
H. Chancery Court Issued Its Opinion on the Merits
After Remand and Petitioner Filed a Cross-Appeal
Challenging the Constitutionality of the Status
Quo Orders for the First Time
On August 29, 2019, the Chancery Court issued its
decision following remand. [Petitioner’s Appx. F] Of
significance for the present Petition, the Chancery Court
held that the Transaction Documents were not binding
on Petitioner and that Delaware Courts did not have
personal jurisdiction over Petitioner. Petitioner filed a
cross-appeal arguing, inter alia, “that in the absence
of personal jurisdiction, he was not subject to contempt
Order raised in the Fourth Motion for Contempt occurred during
the first appeal at a time when Petitioner “was not bound” by
2015 Status Quo Order and “thus cannot be held in contempt for
violating its terms during the interim appeal period.” Eagle Force
Holdings, LLC v. Campbell, 235 A.3d 727, 745 (Del. 2020). This
holding is inapplicable to the First, Second, and Third Motions
for Contempt, which all arose from conduct when the 2015 Status
Quo Order was indisputably in effect.
3. The interlocutory appeal was “refused” by the Delaware
Supreme Court. Campbell v. Eagle Force Holdings, LLC, 213 A.3d
88, 2019 Del. LEXIS 335, 2019 WL 3002937 (Del. S. Ct. July 9,
2019) (table).

12
citations arising from the status quo order….” Eagle Force
Holdings, LLC v. Campbell, 235 A.3d 727, 740 (Del. 2020).
The Delaware Supreme Court quickly dispatched
Petitioner’s argument, first noting that it “is largely a
rehash of the issue we rejected in the first appeal.” Id.
at 740. “As to the First, Second, and Third Contempt
Motions, we reject [Petitioner’s] argument that in the
absence of personal jurisdiction, he was not subject to the
contempt citations arising from the status quo order.” Id.
at 740 & n.60 (noting that Petitioner “does not contest any
of the Court of Chancery’s factual findings relating to his
violations of the order.”). The Delaware Supreme Court
reiterated that it had previously determined in its 2018
decision that the Chancery Court may punish violations
of the status quo order regardless of any later finding
concerning personal jurisdiction, and because Petitioner
had waived his right to ask for reconsideration of that
decision, his current attempt to re-litigate that issue was
rejected:
In the first appeal, we held unanimously that,
“when a Delaware court issues a status quo
order pending its adjudication of questions
concerning its own jurisdiction, it may punish
violations of those orders with contempt and for
sanctions, no matter whether it ultimately finds
that it lacked jurisdiction.” [187 A.3d at 124142.] We observed that, “the Court of Chancery
issued its status quo order while the defendant
was before the court, as other proceedings were
pending.” [Id. at 1241 (emphasis in original)]
We observed that some courts have found that,
although a party may contest a contempt order

13
for lack of personal jurisdiction, “the party
waives that right if it voluntarily decides to
contest the merits of the claim that it violated
a court order, regardless of whether the order
was validly issued.” [Id. at 1242 (emphasis
in original).] We also said that a court must
be able to secure compliance with status quo
orders, or they would be rendered meaningless.
[Petitioner’s] present argument, in essence,
challenges our prior holding. He never sought
to challenge that ruling on reargument, and we
reject his attempt to re-litigate this issue. [See
Mendez v. State, 69 A.3d 371, 2013 Del LEXIS
312, 2013 WL 3270899 at *1 (Del. June 24, 2013
(Table)].
Id. at 740-41.
It is from that ruling that Petitioner seeks certiorari
to this Court.
REASONS FOR DENYING THE PETITION
A. The Delaware Supreme Court’s Decision is Not
in Conflict With the Holdings of This Court or
Any Other Court Cited by Petitioner and His 14th
Amendment Rights are Not Implicated
Petitioner claims that his 14th Amendment rights were
“eroded” and that a conflict with this Court’s decisions
was created when the Delaware Supreme Court rejected
his argument that he was not subject to contempt
citations arising from the status quo order entered by
the Chancery Court while it determined whether it had

14
personal jurisdiction. In fact, the Delaware Supreme
Court’s holding is perfectly consistent with this Court’s
decisions going back at least 73 years and Petitioner’s 14th
Amendment rights are not implicated, much less eroded by
the Delaware Supreme Court’s non-controversial decision.
There is no reason for this Court to review that decision.
Moreover, as demonstrated below, Petitioner
repeatedly, and in a variety of different ways, waived his
right to challenge the 2018 ruling in an earlier appeal that
he now asks this Court to review. This waiver makes this
case a particularly inappropriate vehicle for this Court
to consider the due process issue, even if there was one,
which Respondents respectfully deny.
1.

Petitioner Waived His Right to Challenge the
Delaware Supreme Court’s Holding in the First
Appeal

The Court should not review this decision because
Petitioner waived his right to challenge the Delaware
Supreme Court’s 2018 determination. As the Delaware
Supreme Court pointed out in its 2020 decision, Petitioner’s
argument in the second appeal (and in the current
Petition) challenges the specific ruling contained in the
prior 2018 decision. 235 A.3d at 741. Any such challenge
should have been raised in a motion for re-argument
under Delaware S.Ct.R.18, which must be filed “within 15
days after the filing of the Court’s opinion.” Id. Based on
Petitioner’s failure to file a motion for re-argument, the
Delaware Supreme Court in 2020 “rejected” his attempt
to “relitigate this issue,” Id. (citing Mendez v. State, 69
A.3d 371, 2013 Del LEXIS 312, 2013 WL 3270899 at *1
(Del. June 24, 2013) (Table)).

15
Petitioner incorrectly suggests that he did not waive
his right to assert that he was not subject to contempt for
violations of the 2015 Status Quo Order when he failed to
request re-argument because “[a]t that point there were
no appealable contempt orders” (Petition at p. 12). To the
contrary, at the conclusion of the hearing on the First
Contempt Motion (September 8, 2016) the Chancery Court
ruled from the bench finding Petitioner to be in contempt
of court and granted Respondents’ leave to recover their
fees incurred in bringing the contempt to the court’s
attention from Petitioner. September 8, 2016 hearing,
219/12-222/10 (Ch.Ct.Dkt. 160). While the Court deferred
the assessment of penalties and attorneys’ fees for his
violations of the 2015 Status Quo Order, it found Petitioner
in contempt and awarded attorneys’ fees resulting from
Petitioner’s failure to appear at a continuation of the
contempt evidentiary hearing on September 1, 2016
without providing advance notice.
After receiving briefing addressing the amount of
fees to be awarded for Petitioner’s violation of the 2015
Status Quo Order, the court issued a written decision
on December 15, 2016 (Ch.Ct.Dkt.171) reiterating its
September finding of contempt of court from the bench but
deferring its decision on sanctions. Thus, there were two
findings holding Petitioner in contempt and Respondents’
attorneys’ fees had been awarded and paid at the time the
2018 Delaware Supreme Court decision containing the
ruling which Petitioner now seeks this Court to review
was issued. When the Delaware Supreme Court reversed
the trial court’s finding that it lacked personal jurisdiction
and the corollary finding that it could not impose sanctions
for contempt, 187 A.3d at 1242, those contempt findings
were reinstated and as the Delaware Supreme Court later

16
held, it was incumbent upon Petitioner to promptly seek
re-argument, which he did not do.
2.

Petitioner Waived His Right to Challenge the
Status Quo Order Because it was Issued While
He Was Before the Court as Other Proceedings
Were Pending

As the Delaware Supreme Court noted, “the Court of
Chancery issued its status quo order while the defendant
was before the court, as other proceedings were pending.”
187 A.3d at 1241 (emphasis in original). Petitioner chose to
come to Delaware to challenge personal jurisdiction of the
Delaware court to hear the case on the merits. While he
was before the Delaware Court and before the court could
determine whether it had personal jurisdiction, Petitioner
acknowledged that Respondents were entitled to an order
to preserve the status quo while the court determined
personal jurisdiction. Petitioner stipulated to an initial
emergency status quo order. (Ch.Ct.Dkt.48). Further he
told the court he had “no opposition” to the advance notice
requirement and blocking rights contained in the June
26, 2015 Status Quo Order”) (Ch.Ct.Dkt.48) “continuing
throughout this litigation.” July 9, 2015 Hrg.Tr., 29/22-23
(Ch.Ct.Dkt. 61). The 2015 Status Quo Order was in all
material respects the same as the prior stipulated status
quo agreement. Petitioner did not contest the court’s
authority to enter the order which he requested, nor did he
oppose the inclusion of advance notice requirements that
he later repeatedly violated. Moreover, in response to the
contempt motions, Petitioner claimed that he complied (or
tried to comply) with the status quo order at least in part.

17
Having chosen to appear before a Delaware court
to litigate the merits of the claims against him while
also contesting personal jurisdiction, and having first
stipulated to an interim status agreement and then
expressly consenting to the relevant provisions in the 2015
Status Quo Order, Petitioner has waived any right he had
to challenge a contempt finding based upon that status quo
order. A party appearing before a court cannot defy the
authority of that court, nor can he decide which orders of
that court he will obey and when he will not obey them.
The Delaware Supreme Court expressly ruled (in the 2018
decision Petitioner chose not to timely challenge), that a
court must have “the power to grant ancillary injunctive
relief to protect its jurisdiction over (and the parties’
entitlement to a meaningful adjudication of their rights
in) the property or other matter that is subject of the
action.” 187 A.3d 1241 (quoting E.I. Du Pont de Nemours
& Co. v. HEM Research, Inc., 576 A.2d 635, 639 (Del. Ch.
1989)). Status quo orders “would be meaningless absent
the power to enforce them.” 187 A.3d. at 1240.
3.

Petitioner Waived His Right to Challenge the
Status Quo Order Because He Twice Stipulated
to a Materially Identical Agreement and Twice
Moved for Entry of a Materially Identical
Order

Petitioner further waived his right to challenge
the 2015 Status Quo order on due process grounds
because on two separate occasions he stipulated to a
materially identical “Agreement and Proposed Order” and
subsequently moved twice (jointly with Plaintiffs) for the
court to enter a materially identical stipulated agreement
as an order. In June 2015 as this case was beginning,

18
Petitioner stipulated to a status quo agreement which
he subsequently moved the court to enter as an order.
(Ch.Ct.Dkt. 48). Similarly, after the 2018 appeal that
contained the holding he now seeks to appeal, Petitioner
again first stipulated to a “Status Quo Agreement and
Proposed Order” and then asked the court (jointly with
Plaintiffs) to enter the agreement as its order. (Ch.Ct.Dkt.
273). While the terms of each order varied slightly in
terms of thresholds triggering the notice requirement or
frequency of reporting obligations, it is not those details
that Petitioner now claims violated his due process rights.
4.

Petitioner Waived His Right to Contest the
Contempt Orders Because He Voluntarily
Contested the Merits of the Claim that He
Violated the Status Quo Order

Finally, as the Delaware Supreme Court noted in both
its 2018 and 2020 decisions, Petitioner further waived
the right to contest these contempt orders for lack of
personal jurisdiction when he “contested the merits of
the court’s orders.” 187 A.3d at 1241 & n.209 (emphasis
added) (citing “17 C.J.S. Contempt §104 (‘A voluntary
appearance in a contempt proceeding ordinarily confers
jurisdiction of the person of the defendant’); see also id.
§ 133 (‘A voluntary appearance may result in a waiver
of defects or irregularities in the commencement of the
proceedings, except as to matters affecting jurisdiction
of the subject matter.’).”; see also 235 A.3d at 740-41.
Petitioner did not address this argument in his Petition
before this Court, and the Delaware Supreme Court
was unmoved by Campbell’s argument, made without
citation to any authority, that he could contest whether
he violated a Status Quo Order while not waiving the

19
right to contend that the order did not bind him while his
personal jurisdiction defense was still pending. As the
court below explained, a litigant cannot decide for himself
what parts of a status quo order to follow and what parts he
can disobey. Petitioner’s appearance before the court and
attempts to prove that he had not violated the status quo
order waived any entitlement he may have had to insulate
himself from the Delaware court’s authority to protect the
status quo while it determined whether it had personal
jurisdiction in this matter. To hold otherwise would deny
a party asserting jurisdiction meaningful adjudication
of its rights in the property that is subject to a pending
action and result in chaos and disrespect for the authority
of courts in countless cases across this country.
B. Petitioner’s Due Process Claim is Inconsistent with
Prior Decisions of this and other Courts
1.

The Status Quo Order Had a Limited Purpose
and Did Not Prevent Petitioner from Taking
Any Action

This court should not review this case because
Petitioner’s vague due process argument is inconsistent
with this Court’s precedent in United States v. United
Mine Workers, 330 U.S 258 (1947), and other cases.
As evidenced by Petitioner’s lack of citation to any
judicial authority that supports his position, there are no
conflicting decisions for this Court to resolve.
All three of the relevant contempt orders issued
against Petitioner were based on his failure to give notice
of an intended transaction – a procedure he consented to
in stipulations filed with the court. Petitioner’s contention

20
is that the 2015 Status Quo Order and ensuing contempt
orders somehow infringed on his ownership of Associates.
Petitioner disputed that his signatures on the Transaction
Documents bound him to those documents and thus he
maintained that he was still the sole owner of Associates.
Petitioner controlled Associates’ bank accounts and ran
the business day-to-day.
But the provision of the 2015 Status Quo Order that
he violated did not actually prohibit him from undertaking
any transaction for Associates, it merely required him to
give advance notice of certain financial transactions that
might prejudice Plaintiffs’ claimed 50% financial interest.
The purpose of the advance notice requirement was to give
Respondents an opportunity to assess certain proposed
actions by Petitioner so that Respondents could lodge
objections if they believed the transaction could negatively
impact the value of Respondents’ ownership interest
in Associates. If an objection was lodged, Petitioner
Campbell could ask the court to permit the transaction.
At no time during this litigation did Petitioner notify
Respondents of his intent to take any action requiring
notice.4 Consequently, no objection was ever made and
the court was never called upon to determine whether a
proposed transaction could proceed. Respondents only
learned of Petitioner’s payments to himself in excess of
what he had agreed would be permitted without notice
4. At times, Petitioner Campbell actively sought to frustrate
and thwart the notice requirement by appending a “notice” of
intent to pay to the entire monthly list of Associates’ pending
accounts payable even though many of the listed items were not
actually subject to the notice requirements and regardless of
whether Campbell actually intended to pay them.

21
after they were made. It was payments to himself without
the required advance notice that triggered the contempt
findings. Even though the Court directly admonished
Petitioner (telling him in open court after first finding
him in contempt: “[i]f you have any doubts about the order
and what it says, you should err on the side of providing
advance notice to the plaintiffs”), Hrg.Tr., 221/2-8 (Ch.
Ct.Dkt.160), he continued to repeatedly disregard his
notice obligation. After being admonished and found in
contempt for the first time, Petitioner obstinately failed
to give advance notice of the substantial payments he took
for himself, so that the process he consented to could be
followed.
Given that understanding of the actual process that
Petitioner now objects to, it is clear that his petition seeks
relief that is inconsistent with the United Mine Workers
case, and cases in lower courts that have addressed similar
procedures.
2.

Petitioner’s Position is Contrary to this Court’s
United Mine Worker’s Decision

This Court has found that courts have the authority
to issue orders to preserve the status quo while they
determine whether they have jurisdiction to hear the
matter on the merits and that those courts have the
authority to enforce those orders. Moreover, those orders
do not become invalidly issued such that a party subject
to the order is retroactively forgiven for violating it, even
if the court ultimately determines that it does not have
jurisdiction to consider the claims on the merits.

22
In United States v. United Mine Workers, 330 U.S 258
(1947), relied upon by Petitioner, this Court held that a trial
court “unquestionably had the power to issue a restraining
order for the purpose of preserving the existing conditions
pending a decision upon its own jurisdiction.” Id. at 290. As
this Court pointed out in that case, the defendant, United
Mine Workers, “filed no motion to vacate the order. Rather
they ignored it…” and took the action the restraining
order directed them not to do. Id. Condemning such
conduct in unequivocal language, this Court explained: “If
a party can make himself a judge of the validity of orders
which have been issued, and by his own act of disobedience
set them aside, then are the courts impotent, and what
the Constitution now fittingly calls the ‘judicial power of
the United States’ would be a mere mockery.” Id. at n.56
(quoting Gompers v. Bucks Stove & Range Co., 221 US.
418, 450 (1911)). In the present case, Petitioner likewise
ignored certain portions of the Status Quo Order that he
himself stipulated to and requested that the trial court
enter as an order. Not only did he file no motion to vacate
the order, but he complied with parts of it throughout the
time it was in place in that he affirmatively provided the
periodic reports detailing the finances of Associates, yet
he failed to apprise Respondents or the Chancery Court
that he had decided not to abide by the advance notice
requirements before taking funds for himself in excess
of his stipulated salary. There is no legal justification for
Petitioner’s violations of the status quo order.
Petitioner suggests that if the right to remedial relief
falls with an injunction which events prove was erroneously
issued “then it follows logically” that Petitioner “is free
from any contempt finding and sanction” because the
court ultimately concluded that it did not have personal

23
jurisdiction. (Petition pp. 10-11) This premise, however,
is not supported by this Court’s holding in United Mine
Workers or by any decision of any court cited by Petitioner.
The remedial relief in United Mine Workers that this
Court concluded the plaintiff would not be entitled to if the
court issuing the injunctive relief later determines that it
did not have jurisdiction, was relief to which the plaintiff
would not be entitled unless it won its underlying lawsuit.
This is clear from the cases cited by this Court in support
of the proposition relied upon by Petitioner here. In the
portion of Worden v. Searls, 121 U.S. 14, 25 - 26 (1887)
cited by this Court in United Mine Workers, this Court
explained that “though the proceedings were nominally
those of contempt, they were really proceedings to award
damages to the plaintiff…” arising from infringement of a
patent as asserted in the underlying lawsuit which patent
this Court found to be invalid.
In the present case, the Chancery Court awarded no
contempt damages to Respondents based upon Petitioner’s
alleged breach of contract. The Chancery Court did
not even award a fine as a result of finding Petitioner’s
willful and repeated contumacious violation of the Status
Quo Order. The only sanctions on Petitioner resulting
from the contempt findings was to simply require that
Petitioner return the funds taken from Associates in
violation of the Status Quo Order to Associates and to
order reimbursement of Respondents’ legal fees incurred
in bringing the violations of the Status Quo Order to
the court’s attention. The funds Petitioner returned
to Associates did not benefit Respondent because,
ultimately, the court determined that the Transaction
Documents were unenforceable so Petitioner, as the sole
owner of Associates, then had full access to those funds

24
he had been required to return. The award of attorneys’
fees to Respondents for bringing the violations to the
Chancery Court’s attention merely made Respondents
whole by reimbursing the costs of bringing Petitioner’s
violations of the Chancery Court’s order to its attention.
Reimbursement of those legal fees did not benefit
Respondent in the sense of providing relief sought through
the lawsuit for breach of contract. Moreover, the legal
fees that Petitioner was required to reimburse were selfinflicted in that Petitioner chose to repeatedly violate the
order instead of either complying or seeking to challenge
it through proper legal means. An award reimbursing
attorneys’ fees for bringing a contempt motion is within
the discretion of the Chancery Court and is in no way
the equivalent of the award of damages to the plaintiff
in Worden for violation of its later invalidated patent
infringement claim which was found to be for its private
benefit, not for vindication of the authority of the court.
3.

The Delaware Supreme Court’s Holding Was
Well Supported by Decisions of this and Other
Courts and Does Not Violate Petitioner’s Due
Process Rights

In its first opinion in this case (published May 24,
2018), after first noting that previously, it had “not
squarely addressed whether the Court of Chancery may
impose sanctions on a defendant for violating its status quo
order if the court ultimately finds that it lacks personal
jurisdiction over the defendant,” the Delaware Supreme
Court examined the question raised by Petitioner here.
Citing numerous decisions from Delaware and other
jurisdictions, the Delaware Supreme Court concluded that
the Court of Chancery “has the power to grant ancillary

25
injunctive relief to protect its jurisdiction over (and the
parties entitlement to a meaningful adjudication of their
rights in) the property or other matter that is [the] subject
of the action.” 187 A.3d at 1241 (internal quote omitted).
The dissent joined the majority in this finding, stating that:
[Petitioner] cannot escape liability for contempt.
Having exercised the privilege to litigate before
our Court of Chancery, he was bound to honor
its orders relating to his behavior, and he cannot
escape responsibility for his non-compliance by
claiming he was only before the court to contest
the question of personal jurisdiction.
Id. at 1242 (Strine, C.J., dissenting in part and concurring
in part, joined by Vaughn, Justice).
In support of its decision, the Delaware Supreme
Court cited not only this Court’s decision in United Mine
Workers., 330 U.S. at 293, but also cases from a variety
of other jurisdictions. 187 A.3d at 1241 & n. 208. See
Pitcock v. State, 121 S.W. 742, 744-45 (Ark. 1909) (“[A]
court possesses the power of hearing and determining
the question of its jurisdiction, and may while so doing,
require the parties to preserve the status of the subject
matter, and may punish for contempt disobedience of its
temporary restraining order.”); Hayes v. Towles, 506 P.2d
105, 109 (Idaho 1973) (“In general, a court has the power
to order preservation of the status quo while it determines
its own authority to grant relief, and the violations of a
restraining order issued for that purpose may be punished
as criminal contempt, even if the court subsequently
determines that it is without jurisdiction to grant the
ultimate relief requested.”); Ohio Contractors Ass’n v.

26
Local 894 of Int’l Hod Carriers’, Bldg. & C. L. Union of
Am., 162 N.E. 2d 155, 160 (Ohio Ct. App. 1959) (“[T]he trial
court, whether it ultimately determines that it has or does
not have jurisdiction upon a consideration of the merits
of the case, did have authority to issue the temporary
restraining order and the temporary injunction; that it
likewise had the power and legal authority to punish for
contempt those parties who flagrantly flouted its order
prior to a determination of the jurisdictional question upon
a consideration of the case on its merits.”). The Delaware
Supreme Court also cited 12. A.L.R. 2d 1059 § 6.
In its May 24, 2018 first opinion in this case, the
Delaware Supreme Court distinguished Mayer v. Mayer,
132 A.2d 617 (Del. Ch. 1957), which was the only case
cited by Petitioners and relied upon by the Chancery
Court when it initially and erroneously concluded that it
could not enforce its contempt orders after having found
that it lacked personal jurisdiction over Petitioner. As
the Delaware Supreme Court explained, in Mayer, the
defendant “was not before the court when the Court
of Chancery issued its order” restraining defendant’s
behavior. 187 A.3d at 1240-41 (emphasis in original). “By
contrast, in this case, the Court of Chancery issued its
status quo order while the defendant [Petitioner] was
before the court, as other proceedings were pending.” Id.
at 1241 (emphasis in original).
In its July 8, 2020 second decision in this case,
the Delaware Supreme Court noted that Petitioners’
argument that, in the absence of personal jurisdiction,
he was not subject to contempt arising from the status
quo order was “a rehash of the issue we rejected in the
first appeal,” and then reviewed its prior rationale for

27
rejecting this argument. 235 A.3d at 740-41. The court
concluded that raising this same issue in the second appeal
“in essence, challenges our prior holding.” Id. at 741.
The Delaware Supreme Court “reject[ed] [Petitioner’s]
attempt to relitigate this issue,” as it relates to the “First,
Second, and Third Contempt Motions,” on the grounds
that it had already been decided by that court. It held that
this second cross-appeal was an improper and untimely
attempt to obtain re-argument, which by rule, must be
filed within 15 days of the court’s ruling. Id. at 740-41
(citing Del. S. Ct. Rule 18; Mendez v. State, 69 A.3d 371,
2013 WL 3270899, at *1 (Del. June 24, 2013) (Table)).
4.

Petitioner has Cited No Court Holding that
Sanctions May Not Be Imposed for Violating
a Status Quo Order Even if the Court Later
Determines that it Did Not Have Personal
Jurisdiction

None of the cases cited to this Court in the Petition
(many of which were never cited to the courts below)
contradict the holding challenged by Petitioner. Most
of the cases cited simply establish the requirements for
personal jurisdiction and do not address whether a court
has the authority to enter a status quo order while it
determines personal jurisdiction. These cases are not
relevant to the question Petitioner presents to this Court
inasmuch as the Delaware courts ultimately determined
that Petitioner was not subject to personal jurisdiction in
Delaware. As such, these cases do not provide any basis
for this Court to review this case.
The few cases cited by Petitioner in support of his
argument that federal courts have recognized that “the

28
absence of jurisdictional authority renders a contempt
decree void” (Petition at p. 10) are inapposite. In United
Electrical, Radio and Mach Workers of America v. 163
Pleasant Street Corp, 960 F.2d 1080, 1084 (1st Cir. 1992)
(Petition at p. 10) the trial court issued a Temporary
Restraining Order (“TRO”) requiring defendants to
continue paying for health insurance for employees. Id. at
1084. This TRO was significantly different from the 2015
Status Quo Order in the present case which did not require
Petitioner to pay or not pay anything, but simply required
advance notice if certain payments or transactions were
anticipated to occur and then provided a mechanism for
the court to determine if those payments should proceed
(which was never utilized by Petitioner).
Shortly after the TRO in United Electrical Radio was
put into place, the trial court denied defendants’ motion
to quash (dismiss) the complaint for want of personal
jurisdiction. Thus, the trial court concluded that there
was sufficient evidence to establish personal jurisdiction
and converted the TRO into a preliminary injunction. Id.
at 1084. This is significantly different from the present
case in which the Chancery Court found that it could not
make that determination until later and entered an order
to preserve the status quo until personal jurisdiction could
be determined.
Days after the United Electrical Radio trial court
found there was sufficient evidence to establish personal
jurisdiction, defendants appealed and sought a stay of the
injunction. In conjunction with their appeal, defendants
also sought an order from the appellate court to stay the
injunction. Both the district court and First Circuit denied
the stay. When defendants refused to pay the insurance

29
premiums, as required by the injunction, the district court
granted plaintiffs’ motion to hold defendants in contempt
and imposed daily fines to continue for as long as defendant
remained obdurate. Defendant sought unsuccessfully to
stay the contempt order and filed a second notice of appeal
relating to the contempt.
Thus, the first appeal in the case, United Electrical,
Radio, 960 F.2d 1080 (1992), targeted the preliminary
injunction. The second appeal, United Electrical Radio
and Mach. Workers of America v. 163 Pleasant Street
Corp, 987 F.2d 39 (1st Cir. 1993), targeted the contempt
decree. Both orders were premised on the district court’s
finding that defendant was subject to personal jurisdiction.
960 F.2d at 1084. While the First Circuit held that an
absence of jurisdictional authority would render both
orders void, the key distinction between United Electrical
Radio and the present case is that in United Electrical
Radio, when the contempt occurred there had already
been a finding that there was jurisdiction which was later
reversed. In the present case, the Chancery Court found
that it could not yet make that determination and entered
an order to preserve the status quo until it could determine
personal jurisdiction. Additionally, the relief granted was
affirmative, in that defendant in United Electrical Radio
was ordered to spend money which would not have been
required unless plaintiff won its case. In the present case,
Petitioner was never required to spend money and was not
required to do anything except provide notice.
The holding in United Electrical Radio is not
inconsistent with the Delaware Supreme Court’s holding
in the present case. This is so because the contempt
finding in United Electrical Radio was vacated because

30
it was entered and based on a failure to comply, both
of which occurred after the trial court had incorrectly
concluded that it had personal jurisdiction. In the first
appeal, when the First Circuit determined that the trial
court’s conclusion that it had personal jurisdiction was
unsound, it then followed that if there was no personal
jurisdiction, rulings based upon that incorrect finding
were void. The First Circuit did not find, and was
not called upon to determine, whether a violation of
the temporary restraining order that was entered to
preserve the status quo prior to the trial court’s personal
jurisdiction determination would be void. In fact, in the
second appellate decision in the same case, the First
Circuit clarified that in vacating “the district court’s
[preliminary] injunction and contempt orders” it “did not
reach the merits of the lower court’s decisions.” Rather,
the court merely “directed that the preliminary injunction
and contempt order be vacated and remanded the case ‘for
further proceedings not inconsistent [with our opinion.]”
987 F.2d at 42 (bracketed language contained in original)
(clarifying 960 F.2d 1080).
In Willy v. Coastal Corp., 503 U.S. 131 (1992) (Petition
at pp. 9 - 10) this Court affirmed that a Rule 11 sanction
could be constitutionally imposed even when the subjectmatter jurisdiction of the court imposing the sanction was
eventually found lacking. As this Court explained, the
imposition of a Rule 11 sanction is not a judgment on the
merits of an action. Id. at 138. “Such an order implicates no
constitutional concern because it ‘does not signify a district
court’s assessment of the legal merits of the complaint.’”
Id. (citation omitted).

31
Like the violation of Rule 11 in Willy, the Chancery
Court’s determination that Petitioner violated the 2015
Status Quo Order was not an assessment of the legal
merits of the complaint, and even though it was later
determined that the court lacked personal jurisdiction,
“such a determination does not automatically wipe out all
proceedings had in the [trial] court” while the court was
determining whether it had personal jurisdiction. Id. at
137. This Court noted that the petitioner in Willy admitted
that the trial court had “authority to exercise ‘inherent
powers’ to sanction through attorney’s fees and costs or
criminal contempt those who obstruct a court’s effort to
determine its jurisdiction.” Id. at n. 2. In the present case,
Petitioner’s violations of the 2015 Status Quo Order clearly
obstructed the court’s effort to preserve the disputed
property while it determined its jurisdiction.
Petitioner’s reliance on United States v. Thompson,
921 F.3d 82, 87-88 (2d Cir. 2019) (Petition at p. 10) is also
completely inapt. In Thompson, the Second Circuit held
that a family court could not enjoin a person’s behavior
through an ex parte order “unless and until the person has
been properly served.” Id. at 87. It was in that context that
the court rejected the Government’s argument that actual
notice of the ex parte order may substitute for proper
service under the applicable statute because that position
“…confuses the requirements for personal service with
those for contempt of a protection order.” Id. Thompson
did not involve a status quo order that was put in place
while a court determined if it had personal jurisdiction.
Unlike in Thompson, Petitioner here never contested
notice of the 2015 Status Quo Order. In fact, he testified
that he was actually aware of its provisions, understood
that the order applied to him, and was further aware that

32
the Chancery Court had not yet made a determination on
personal jurisdiction.
C. Petitioner Received Due Process and The
Implications of Petitioner’s Position Would Create
Bedlam in the Courts of the United States
In addition to failing to identify any authority to support
his position in this appeal, Petitioner has failed to explain
exactly what “due process” he was entitled to but did not
receive. It appears Petitioner has intentionally asserted
only a vague and theorical “wrong” because a review of
what happened below demonstrates that Petitioner was
most assuredly the beneficiary of substantial due process.
It was that due process that resulted in the Delaware
Court ultimately deciding that Petitioner was not subject
to personal jurisdiction in Delaware and thus, not subject
to a judgment by that court. Petitioner did not object to
imposition of the status quo order while the court was
determining personal jurisdiction, but now belatedly
objects to being found in contempt for having violated
it. Petitioner’s position thus appears to be that although
the court has the authority to impose a status quo order,
it does not have the authority to enforce it because it
ultimately determined, based on the merits of the claim,
that the court lacked personal jurisdiction over Petitioner.
Petitioner’s goal is apparently to recover the attorneys’
fees that were awarded to Respondent for bringing his
violations to the Chancery Court’s attention. There is
no other remaining consequence of his being found in
contempt. Petitioner would thus have this Court punish
Respondents for alerting the Chancery Court to violations
of its properly issued status quo order. Such a state of
affairs would reward the party who violated a court’s

33
order and punish the party who brought that violation to
the court’s attention.
Petitioner had multiple options available to him to
challenge the authority of the Chancery Court to maintain
the status quo, including simply ignoring the proceeding
altogether, confident that with no property or other contacts
in Delaware, any judgment rendered by a Delaware Court
would be meaningless until it was presented to a court in
Virginia where Petitioner is a citizen. He also could have
opposed and then appealed the imposition of the 2015
Status Quo Order. But having presented himself to the
Delaware courts and having asked that court to rule for
his benefit, even on the issue of personal jurisdiction, and
then proceeding to lead that court and Respondents to
believe that he was complying with the Status Quo Order
entered against him while the court determined personal
jurisdiction, it was brazenly dishonest and contrary to
the rule of law for Petitioner to repeatedly and knowingly
violate that order. Nor does the fact that the Delaware
Court ultimately determined that it did not have personal
jurisdiction erase the contempt Petitioner showed for
the legal process in which he participated and to which
he consented. Respondents obtained no windfall from
the contempt findings. Petitioner was simply required
to return the money he took in violation of the court’s
orders to the disputed company—not to Respondents.
When the court terminated the litigation by dismissing
for lack of personal jurisdiction, those funds continued to
be available to Petitioner. Nor did the reimbursement of
Respondents’ legal fees incurred in bringing Petitioner’s
violations to the attention of the Chancery Court result
in a benefit to Respondents. Those fees were expended to
make the Chancery Court aware of violations of its order.

34
Petitioner’s decision to repeatedly violate court orders
was the direct cause of his having to reimburse the fees
that Respondents incurred. He cannot credibly claim that
requiring him to reimburse fees incurred solely because
he chose to violate court orders that he requested violated
his due process rights.
In sum, rather than being necessary to “correct
this wrong” (Petition p. 12), certiorari in this case would
reward a litigant who repeatedly showed his contempt
for the authority of the court while it protected his due
process rights by determining whether he should be bound
by Transaction Documents that he signed.
CONCLUSION
For the foregoing reasons, Respondents Eagle Force
Holdings, LLC and EF Investments, LLC respectfully
request that the Petition for Certiorari in this case be
denied.
Respectfully submitted,
Frank E. Noyes, II
Offit Kurman, P.A.
222 Delaware Avenue,
Suite 1105
Wilmington, Delaware 19801
(302) 351-0900
fnoyes@offitkurman.com

Harold M. Walter
Counsel of Record
Offit Kurman, P.A.
300 East Lombard Street,
Suite 2010
Baltimore, Maryland 21202
(410) 209-6400
hwalter@offitkurman.com

Counsel for Respondents
Dated: January 11, 2021

